<html>
<title> - THE CONGRESSIONAL WORKPLACE SAFETY: SAFETY CONCERNS AND FUTURE PLANS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      THE CONGRESSIONAL WORKPLACE
                SAFETY: SAFETY CONCERNS AND FUTURE PLANS

=======================================================================

                               (111-141)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 30, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
58-490                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
RUSS CARNAHAN, Missouri              SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
MICHAEL A. ARCURI, New York          MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY,               BRETT GUTHRIE, Kentucky
Pennsylvania, Vice Chair             ANH ``JOSEPH'' CAO, Louisiana
DONNA F. EDWARDS, Maryland           VACANCY
THOMAS S. P. PERRIELLO, Virginia
HANK JOHNSON, Georgia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Ayers, Hon. Stephen T., Architect of the Capitol.................     4
Burger, Megan, Member, CVC Employees Union Organizing Committee, 
  AFSCME Local 658...............................................    12
Chrisler, Tamara E., Executive Director, Office of Compliance, 
  accompanied by Peter Eveleth, General Counsel, Office of 
  Compliance.....................................................     6
Loversidge, Robert Jr., President & Chief Executive Officer, 
  Schooley Caldwell Associates...................................     8
Reed, Wallace Jr., President, American Federation of State, 
  County, and Municipal Employees................................    10

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ayers, Hon. Stephen T............................................    33
Burger, Megan....................................................    42
Chrisler, Tamara E...............................................    50
Loversidge, Robert Jr............................................    56
Reed, Wallace Jr.................................................    65
[GRAPHIC] [TIFF OMITTED] T8490.001

[GRAPHIC] [TIFF OMITTED] T8490.002

[GRAPHIC] [TIFF OMITTED] T8490.003

[GRAPHIC] [TIFF OMITTED] T8490.004



     THE CONGRESSIONAL WORKPLACE: SAFETY CONCERNS AND FUTURE PLANS

                              ----------                              


                      Thursday, September 30, 2010

                  House of Representatives,
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:09 p.m., in 
room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chairman of the Subcommittee] presiding.
    Ms. Norton. The hearing will come to order. I am very 
pleased to welcome our witnesses, and I look forward to their 
testimony. This Subcommittee has jurisdiction over the 
Architect of the Capitol, the Capital program, and of course, 
we can engage in oversight generally concerning the AOC. Today, 
the Subcommittee will examine the fiscal year 2009 State of the 
Congressional Workplace report produced by the Office of 
Compliance and its relationship to the AOC's infrastructure 
plan.
    The OCC was created by the Congressional Accountability Act 
of 1995, which was passed through the Congress, and its 
auxiliary agencies generally follow the same employment labor 
accessibility and safety laws that apply to the private and 
public sectors. The Congressional Accountability Act applies to 
the employees of the House of Representatives, the Senate, the 
Congressional Budget Office, the Office of the Architect of the 
Capitol, the Office of the Attending Physician, the Office of 
Congressional Accessibility Services, the United States Capitol 
Police, the General Accountability Office, and the Library of 
Congress, covering an estimated 30,000 employees. Section 
215(e) of the Congressional Accountability Act requires the OOC 
to inspect the facilities of the agencies under its 
jurisdiction for compliance with occupational safety and health 
standards under the Occupational Safety and Health Act at least 
once each Congress.
    On July 13, 2010, the OOC released its fiscal year 2009 
annual report, State of the Congressional Workplace. The fiscal 
year 2009 annual report covers 96 percent of the 17 million 
square feet of space occupied by the Congress and other 
legislative branch facilities in the metropolitan Washington, 
D.C. area. The United States Capitol Complex has a long and 
storied history, and includes the House office buildings, the 
Capitol, the Senate office buildings, the Library of Congress 
the Supreme Court Building, the Botanical Gardens, the Capitol 
Power Plant, and other buildings. Construction of the Capitol 
began in 1793, and extensions, additions and renovations of the 
Capitol have continued in the late 18th century until now, when 
the Capitol Visitor Center, or CVC, the most recent addition to 
the Capitol, opened in 2008.
    Today the Capitol Complex encompasses over 450 acres and 
houses several important institutions in the American 
government.
    With several of the buildings approaching 100 years of age, 
the care, condition and safety of the buildings of the Capitol 
Complex are important concerns for this Subcommittee.
    In addition to being symbols of democracy, these buildings 
also house the working offices of America's elected officials, 
the House of Representatives and the Senate, the Library of 
Congress and other public servants. The fiscal year 2009 annual 
report documents compliance with occupational safety health 
standards for the 110th Congress, and provides projections for 
the number of hazards in the 111th Congress.
    The report indicates there are 9,200 hazards in the 
Congressional workplace, there were 9,200 in the Congressional 
workplace, during the 110th Congress, which represented a 30 
percent reduction from 109th Congress during which 13,140 
hazards were identified. The Rayburn House Office Building had 
the highest number of safety and health hazards, followed by 
the James Madison Memorial Building and the Longworth House 
Office Building.
    The OOC projects that the 111th Congress will have 6,300 
hazards representing a 50 percent drop since 2006. We will take 
a hard look at the long-term plan to maintain the safety and 
accessibility of the Capitol Complex.
    Going forward with long-term capital asset planning, we 
will examine some of the measures that the AOC and the OCC are 
taking to ensure that legislative branch employees and the 
millions of visitors to the Capitol Complex are not exposed to 
harm unnecessarily, and further, that these offices are 
conducting or identifying requisite training or establishing 
safety practices and procedures for Congressional employees and 
visitors.
    Although there has been a significant drop in hazards since 
the 108th Congress, there are still significant risks to the 
health and safety of visitors and employees in the Capitol 
Complex. It is our understanding that a recent Blue Ribbon 
Panel convened by the AOC produced a final report about some of 
the more serious hazards on the Senate side, and that will 
inform how the Architect addresses similar fire issues in the 
Capitol and in the Cannon Office Building.
    The OOC report detailed serious safety violations from open 
stairwells in the Russell Senate Office Building that could 
create a dangerous smoke tunnel, perhaps preventing people from 
escaping if the building caught fire, or sustained explosive 
attacks going all the way to the Jefferson Building which lacks 
adequate exit stairwells.
    We want to be sure that the AOC has the plans and tools to 
cope with the challenge of modernizing the Capitol Complex 
consistent with its status as a national historic landmark.
    With the recent completion of the new 580,000 square feet 
of the Capitol Visitor Center, many issues are presented such 
as assuring that the Capitol Complex is accessible for 
Americans with disabilities and that there are sufficient 
safeguards in place to prevent a fire from becoming a major 
calamity.
    We want to partner with the office of the AOC and OOC, with 
both of those offices, so that our Subcommittee can draw upon 
this Subcommittee's own long, collective expertise in 
construction management and long-term capital asset planning to 
ensure that the U.S. Capitol Complex remains an iconic 
masterpiece.
    We also are concerned about issues I detailed in a letter 
dated August 18, 2010, concerning emergency preparedness and 
response training for CVC or Capitol Visitor Center workers. 
Their working conditions, employee benefits, including the 
possible loss of benefits, as well as reports of the CVC 
forbids employee contact with Members of Congress.
    In addition, CVC employees allegedly were instructed to 
flush the contents of a bag of white powder labeled ``anthrax'' 
down a toilet instead of alerting U.S. Capitol Police of its 
discovery. It is also alleged that CVC employees are subject to 
harmful working conditions, including uniforms inappropriate 
for outdoor work in summer and winter months and limitations on 
water consumption. These allegations are serious, and we expect 
to hear from both parties about how these issues are being 
resolved.
    I look forward to the testimony of officials from the 
Architect of the Capitol, the Office of Compliance, the 
American Institute of Architects and union officials to ensure 
that the U.S. Capitol Complex remains safe and accessible as a 
workplace.
    We were instructed, Mr. Ranking Member, to go ahead and 
that you would be here momentarily and, voila, you are, so I am 
pleased to ask the Ranking Member if he has any opening 
comments.
    Mr. Diaz-Balart. Thank you, Madam Chairman, and I will be 
brief and as usual, you and I on issues of this Subcommittee 
work very closely and I appreciate this wonderful working 
relationship. I want to thank as you did the distinguished 
panel for being here today. And really the only thing that I 
just want to add is obviously when we are talking about the 
Congressional workplace, the safety of the Congressional 
workplace, we have to be reminded that there are millions of 
people that go through this complex and thousands that work 
here, whether it is members of staff and others and obviously, 
and those of us Members of Congress, so it is not just us, it 
is also for the thousands upon thousands upon thousands of 
visitors.
    And I want to thank you, Madam Chairwoman, for putting 
together this hearing and for bringing together a very 
distinguished group of panelists. And I look forward to hearing 
from them on an issue that is obviously of great importance to 
all of us and to the millions of people who visit this complex. 
Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart. Now let 
us proceed to the witnesses, and I will simply introduce them 
as they are called to speak.

STATEMENTS OF HON. STEPHEN T. AYERS, ARCHITECT OF THE CAPITOL; 
 TAMARA E. CHRISLER, EXECUTIVE DIRECTOR, OFFICE OF COMPLIANCE, 
   ACCOMPANIED BY PETER EVELETH, GENERAL COUNSEL, OFFICE OF 
 COMPLIANCE; ROBERT LOVERSIDGE, JR., PRESIDENT & CEO, SCHOOLEY 
  CALDWELL ASSOCIATES; WALLACE REED, JR., PRESIDENT, AMERICAN 
  FEDERATION OF STATE, COUNTY, AND MUNICIPAL EMPLOYEES; MEGAN 
   BURGER, MEMBER, CVC EMPLOYEES UNION ORGANIZING COMMITTEE, 
                        AFSCME LOCAL 658

    Ms. Norton. The first witness is the Architect of the 
Capitol, Stephen T. Ayers, was nominated by President Obama, 
confirmed by unanimous consent of the Senate in May of this 
year, and served in the Office of the Architect of the Capitol 
since 1997, was, prior to that, an architect working with the 
Voice of America both here and in Greece, licensed as an 
architect in the State of California. Welcome, Mr. Ayers. We 
will hear your testimony at this time. Would you summarize it.
    Mr. Ayers. Madam Chair and Congressman Diaz-Balart, thank 
you for inviting me here today to discuss the Architect of the 
Capitol's commitment to provide a safe and healthy environment 
for all who work here and the millions of people that visit 
each year. With Congress' support, very significant investments 
have been made to improve fire and life-safety systems in the 
Congressional office buildings. As a result, the buildings on 
Capitol Hill are safer today than ever, as evidenced by a 60 
percent reduction in identified hazards since the 109th 
Congress.
    We are very pleased with this progress, particularly 
because the amount of square footage of facilities that we 
maintain significantly increased over the same period of time.
    While the Office of Compliance is still conducting its 
inspections of the 111th Congress, as of last week, they have 
identified 1,785 findings attributable to the Architect of the 
Capitol. Of these 1,785 today, we have closed 82 percent of 
these findings and nearly 18 percent of them were closed during 
the inspections themselves. Along with these efforts, we have 
also made substantial physical improvements into the Capitol's 
infrastructure to enhance safety.
    Since 2007, the Congress has invested more than $200 
million in fire, life and occupational safety projects. These 
improvements include the extensive installation of smoke 
detection and fire sprinkler systems throughout our buildings. 
While we have made great progress improving safety at 
Congressional facilities, we realized that there is still work 
to do. Of the 1,785 Office of Compliance findings I mentioned 
earlier, the remaining 8 percent will require substantial time 
and significant resources to resolve. To address these, between 
fiscal year 2011 and fiscal year 2015, we plan to request more 
than $300 million in citation-related work and an additional 
$300 million in additional fire and life-safety projects to 
include deferred maintenance and capital renewal projects.
    Although every project we have identified is prioritized 
and necessary, we realize not all can be funded nor will be 
funded in these fiscally challenging times. To assist us in 
this prioritization effort, we have successfully developed and 
implemented a robust and balanced process to prioritize 
projects based on facilities' conditions and the level of 
maintenance required to ensure they remain functional and 
viable working environments for the Congress.
    This process uses several tools in the formulation of the 
project prioritization list, including facility condition 
assessments, the Capitol Complex Master Plan and its 
jurisdiction plans.
    Over the past year, this process has matured to include a 
5-year capital improvements plan which examines phasing 
opportunities, project sequencing and other factors to best 
facilitate the timing and execution of major deferred 
maintenance and capital renewal projects. Tied into this 
overall planning process is the line item construction process, 
and during this process projects are scored against six 
criteria. These include safety and regulatory compliance, 
security, mission, historic preservation, economics, and energy 
efficiency and environmental quality. The component that 
provides us and the Congress with the big picture, the 20-year 
look ahead to cue up the priorities investments and projects, 
is the Capitol Complex Master Plan, and we have been working 
with the Congress to develop this plan and its related 
jurisdiction plans.
    The Master Plan assumes incremental decision making, 
leaving choices about future renewal and development to be made 
closer to the anticipated time when these decisions must be 
made. Essentially, master planning provides the Congress with 
the wholistic vision, or a blueprint, for facility-related 
decision making.
    The master plan and the other prioritization tools we have 
developed and refined over the past few years provide Congress 
with concrete, practical assessments of our infrastructure. And 
by using these tools, Congress can choose best where to make 
investments in the Capitol campus.
    Madam Chair, the level of safety and accessibility across 
the campus has never been higher and continues to improve as we 
work to complete enhancements and repairs to the facilities and 
grounds. However, work remains to be done, and we know that 
constant vigilance is required. We know our safety 
responsibilities are twofold, to provide safe facilities for 
all occupants and visitors and to provide a safe work 
environment for our workforce.
    And to address this second responsibility specifically, we 
continue to invest in our employees by providing them with the 
right tools, equipment and training to ensure they work in a 
safe and productive environment. With a 76 percent reduction in 
our injury and illness rate over the last 10 years, this places 
us among the best in the Federal Government for worker safety.
    We will continue to work with our oversight committees to 
address issues in a planned matter that is fiscally 
responsible, efficient, effective and protective of those who 
work and visit our buildings as well as maintain and protects 
the unique architectural features of these historic and iconic 
buildings and grounds.
    We appreciate this Subcommittee's continued interest and 
support, and I would be happy to answer any questions you may 
have.
    Ms. Norton. Thank you, Mr. Ayers.
    The next witness is the executive director of the Office of 
Compliance, Tamara Chrisler, appointed to a 5-year term, 
January 2008, had served as a labor and employment attorney for 
the Federal Bureau of Prisons representing the interests of the 
government as well as administrative agencies in claims brought 
by employees before the Federal Court. Prior to this 
appointment, she was the OOC's general counsel.
    Ms. Chrisler.
    Ms. Chrisler. Thank you, Madam Chairman, good afternoon and 
good afternoon, Congressman Diaz-Balart. Thank you for the 
opportunity to testify today concerning the Office of 
Compliance in our role in concerning safety and health, 
accessibility and workplace rights in the legislative branch. 
With me at the witness table to your right is Peter Eveleth 
general counsel of our office. Mr. Eveleth has statutory 
responsibility over safety, health and accessibility issues in 
the Office of Compliance, and he has joined me to answer any 
questions you may have today.
    As you mentioned when you opened the hearing, Madam Chair, 
the Office of Compliance's most recent annual report summarizes 
the work we do with respect to workplace rights as well as 
safety and health. Most of our workplace rights efforts are 
performed quietly as the CAAmandates confidentiality while 
addressing these issues administratively. Our other areas of 
focus, however, are typically addressed more openly, like our 
work in safety and health, which includes conducting biennial 
inspections and responding to requests for inspection. Although 
our 111th Congress inspection has not been completed, as you 
mentioned, our annual report projected a 50 percent reduction 
in hazards from the 109th Congress inspection which was our 
original baseline inspection. This reduction is due in part to 
the commendable efforts of the Architect of the Capitol's 
Office and other employing offices which are constantly working 
on the abatement of hazards.
    Technical assistance provided by our agency has also played 
a significant role in improving safety and health on the Hill. 
For instance, at the request of Congress, we conducted a 
comprehensive preinspection of the CVC before it opened in 
December, 2008. Because the facility was not yet occupied, 
remedying the identified deficiencies was more efficient, and 
in some instances, less expensive than had we waited until 
after it opened.
    We work closely with the AOC staff throughout this process 
to ensure that the CVC could open on time, free from safety 
hazards, and fully accessible to visitors, Members and 
employees with disabilities.
    We are pleased to report that all occupational health and 
safety hazards identified during this 2008 preinspection have 
now been abated. Most accessibility barriers to individuals 
have been removed, and the AOC is continuing to work on 
resolving the remainder.
    Notwithstanding, we believe some of the most significant 
hazards currently in the community are the most serious and 
longstanding fire and life safety hazards in most of our 
historic and iconic buildings on Capitol Hill, including the 
House and Senate Office Buildings, the Capitol and the Library 
of Congress buildings. While much progress has been made in 
increasing the level of fire safety in some buildings, 
substantial critical work remains to be undertaken. We 
understand and appreciate that the AOC has limited budgetary 
resources, and not all hazards can be abated overnight.
    Until the hazards can be permanently remedied, the 
Architect has instituted important interim measures to provide 
additional fire safety. The AOC installed new smoke detectors 
and sprinklers within several legislative branch facilities, 
and we understand that the AOC intends to provide complete 
smoke detection capability in all legislative branch 
facilities.
    Separate and apart from the fire hazards, another high risk 
area is the Capitol Power Plant utility tunnels. As you know, 
there exists a 5-year plan to abate the hazards entirely. A 
great deal of progress has been made, thanks to the resources 
provided by Congress as well as the cooperative efforts of AOC 
staff and our OOC tunnels liaison. Assuming sufficient funding, 
that project is ontrack for complete and timely abatement in 
2012.
    In the coming Congress, the Office of Compliance is 
undertaking a new risk-based approach to our biennial 
inspections to target and devote our inspector resources to 
potentially high hazard and high accessibility barrier areas 
across campus.
    First we intend to preinspect new or significantly 
renovated buildings, such as the Cannon building, which will be 
undergoing major upgrades. As we found with the CVC, we expect 
that identifying and correcting hazards and barriers to access 
before the building is occupied will be more efficient and in 
at least some instances less expensive. Second, we will also 
target our biennial inspection at the most dangerous workplaces 
and occupations. We are targeting these activities because now 
that we have completed three comprehensive inspections of the 
legislative branch, we believe it appropriate to concentrate on 
the highest risks.
    We intend to review compliance with selected safety and 
health procedures and programs, like fall protection, hazard 
communication, and lockout tag-out programs.
    During the current Congress, we have offered and provided 
technical assistance to employing offices in reviewing their 
program. Third, we intend to concentrate our efforts on 
ensuring complete and timely abatement by employing offices of 
high risk hazards, identified in current and previous biennial 
inspections.
    Finally, our cooperative work with the AOC extends to 
accessibility barriers in the legislative branch.
    During our biennial inspection in the next Congress, we 
look forward to working with the AOC to determine where the 
most serious barriers are present so that projects can be 
undertaken in priority order.
    Cost effectiveness remains a vital issue for us in our 
regular biennial inspections during this time of severe budget 
constraints. We know that by preventing or quickly remedying 
hazards can save workers' lives and limbs, but it saves money 
too. Every workplace injury that doesn't happen means thousands 
of dollars in savings on worker's compensation, medical bills, 
lost productivity and overtime payments just to name a few.
    Indeed, between 2001 and 2007, the Library of Congress 
achieved an estimated $11 million in injury cost avoidance 
through its injury prevention efforts, hence our motto, 
``safety pays.''
    On behalf of the Office of Compliance and its board of 
directors, I would like to thank you for the opportunity to 
appear before you this afternoon to discuss these very 
important issues. I, along with Mr. Eveleth, look forward to 
answering any questions you may have.
    Ms. Norton. Thank you very much, Ms. Chrisler. You hadn't 
been the general counsel, you simply brought the general 
counsel with you in case there are questions. We don't think 
there will be questions for the general counsel. The questions 
will be for you. If necessary, we will hear questions from 
someone else.
    Ms. Chrisler. Thank you, Madam Chair.
    Ms. Norton. The next witness is the President and CEO of 
Schooley Caldwell associates, Robert Loversidge, Jr. He is a 
practicing architect, an expert in the field of historic 
preservation, restoration and innovation. Mr. Loversidge has 
experience working with historic buildings in a number of 
States. I welcome him to offer his testimony at this time.
    Mr. Loversidge. Chairman Norton, Ranking Member Diaz-
Balart, thank you for inviting me to testify today regarding 
safety, accessibility and historic preservation in our Nation's 
Capitol. I am here at the behest of the American Institute of 
Architects, which has been the leading professional membership 
association for licensed architects since 1857. At my firm, I 
have had the great fortune to work at four State capitals, the 
Supreme Court in Ohio and numerous Federal, State and local 
courthouses, all historic buildings with characteristics and 
issues similar to those at the national Capitol Complex.
    These historic buildings were completed long before modern 
life safety codes, OSHA regulations, electronic technologies 
and access for people with disabilities were part of our 
architectural vocabulary. Many were built before air 
conditioning, elevators, automobiles, computers, iPods, the 
internet, and even restrooms. Nevertheless as you mentioned 
Madam Chair in your opening remarks, these buildings are 
important, as iconic symbols of the function and permanence of 
our government, as workplaces for government employees and 
visitors, and as sources for national, State and local civic 
pride.
    When Ohio's National Historic Landmark Statehouse was 
designed in 1838, it contained all of State government in 53 
rooms. When we began our master plan in 1988, the same space 
was occupied by 317 rooms. I don't have to show you photographs 
to show you what the before conditions were like.
    Today, after completion of an award winning restoration, 
renovation and addition project, the Ohio Statehouse serves as 
a model capitol for the future. It has been sensitively 
restored. While President Lincoln would recognize the building 
he visited in 1861 as President-elect, the building is fully 
sprinklered and life safety code-compliant, it is fully 
accessible to people with disabilities, it has the most 
comprehensive closed-circuit television Internet streaming and 
communication system designed to date by Sony.
    It has state-of-the-art energy efficient heating and 
cooling systems. And it has all of the functionality of a 
modern State capitol building, hearing rooms, gathering spaces 
adequate staff workspaces, museum and visitors facilities, 
security systems and so forth.
    From an architectural point of view, the issues that you 
are studying regarding workplace safety and accessibility boil 
down to two related topics, life safety code compliance, and 
access for people with disabilities. Although the code books 
are very extensive and complex, the most difficult problems we 
encountered in monumental buildings are, one, providing 
adequate and safe means of egress, two, fire separation, and, 
three, smoke control.
    The Americans with Disabilities Act celebrated its 20th 
anniversary this year. We have always taken the position that 
all functional spaces in a public building should be made 
accessible to as many people with as many disabilities as 
possible. In our 170-year old Statehouse, I set a personal 
design goal of making all of the spaces accessible, and we made 
it once we finally figured out how to insert a wheelchair lift 
into the corner of a small public gallery in the House chamber. 
One technique we found particularly helpful is to assemble a 
committee of people with a variety of disabilities to advise us 
during the design phase and to test the final result 
afterwards.
    The bottom line here is that we do not believe that 
architectural accessibility, full functionality, and historic 
preservation are mutually exclusive.
    One key to a great project is to make 100-year design 
decisions. While all of the equipment that we place into our 
buildings may not last that long, we try to place ductwork, 
piping, conduit, runs in places where they will seem 
appropriate decades later. For example, in our State capitol, 
we have 4- to 6-foot thick solid stone interior walls and brick 
groin vaulted ceilings, no place to hide ductwork or air 
handling equipment. Our solution was to carve pathways into the 
masonry walls for ducts but to place the fans in a basement 
plinth area where they can be easily replaced when they become 
obsolete.
    All of this works better, of course, if there is a long-
range vision or master plan for the facility. A master plan 
allows stakeholders and designers to collaborate regarding 
priorities phasing and budget issues and it gives the 
legislative body a clear path forward to accurately anticipate 
funding needs. The master plan also provides a basis for 
communication so the building occupants can stay informed and 
have realistic expectations.
    At the Minnesota capital where we are currently restoring 
the second largest marble dome in the world, the construction 
manager issues a weekly electronic update to everyone.
    In Utah, we had the great luxury of having the entire 
building to work on at once. It was a seismic reinforcement 
project, and we simply couldn't do it in an occupied building, 
so the State built two new adjacent buildings for expansion 
space and the occupants had to move there temporarily.
    While vacating the entire building rarely works because of 
lack of equivalent alternate facilities successful phasing of 
projects by area can work. We did this successfully in Ohio and 
Kansas. Critical things to consider are phasing the to respect 
life safety requirements and phasing to allow continuous 
operations of building systems like electricity, heating and 
air conditioning and fire alarms.
    Finally, I would like to address the biggest challenge to 
the success of these projects, which is, frankly, not 
architectural engineering designability, but rather creating 
the political will to succeed. The Capitol is a working 
essential government building occupied by important people who 
have issues other than facility modernization on their minds.
    I have to tell you the most successful projects to improve 
the workplace are the direct result of strong consensus-based 
political will. I don't know exactly how this consensus can be 
accomplished here in Washington, D.C., but I can tell you that 
it is important part of all successful historic preservation 
master plan and renovation projects.
    One of our most insightful clients, the late Chief Justice 
of the Supreme Court of Ohio, Thomas J. Moyer, advised us over 
and over during the design of the Ohio Judicial Center, to 
design for the institution, not for its current occupants.
    One more quick story about political will. I distinctly 
remember telling Ohio Governor, now Senator George Voinovich, 
as he was moving out of his Statehouse office ahead of our 
renovation that he would have to be reelected in order to move 
back. He won reelection at the time with 72 percent of the 
vote.
    In conclusion, I would like to thank the Committee for its 
hard work in addressing these complex issues and I look forward 
to answering any questions the Committee may have. Thank you.
    Ms. Norton. Thank you Mr. Loversidge.
    Wallace Reed, Jr., is President of the American Federation 
of State County and Municipal Employees, or AFSCME, local 626. 
Mr. Reed has worked at the Botanic Gardens for 21 years, and is 
the president of AFSCME 626 since 2005.
    Welcome, Mr. Reed.
    Mr. Reed. Thank you very much Madam Chairwoman, Mr. Ranking 
Member, for the opportunity to speak today. I want to 
concentrate on two sections of the Office of Compliance 2009 
annual report, the State of Health and Safety and the State of 
Workplace Rights.
    I want to applaud Mr. Ayers. Under his leadership there has 
been an improvement in the state of health and safety since I 
started working in 1989. There has been and continues to be an 
emphasis on workplace safety. The preinspection processes have 
been very successful and some AOC jurisdictions have very 
proactive safety committees. In my opinion, the average AOC 
employee is much more safety conscious than they were 5 years 
ago.
    In the Botanic Garden, for example, safety is discussed on 
a regular basis and discussed intently. However, recently there 
have been reports that have funneled to me of employees being 
discouraged from reporting workplace injuries or accidents 
because it might jeopardize a group workplace safety award. 
There have been other reports that employees are being 
threatened with discipline during safety regulations. I hope 
these reports are isolated incidents and not a new trend. The 
union does not want a potential award to be an incentive not to 
report accidents or health and safety violations.
    The 2009 Office of Compliance fiscal year 2009 report 
points out that approximately 25 percent of the hazards were 
listed as RAC 1 or RAC 2 hazards, meaning high risk hazards. 
These hazards left unabated can pose a serious danger for 
lawmakers, visitors and employees. It is worth pointing out 
that even though there has been a substantial reduction in the 
number of hazards found in the Congressional workplace, the 
high risk hazards continue to be about 25 percent each year. 
The union would like to work with AOC management to determine 
where these high risk hazards continue at such a high 
percentage rate and explore different ways to reduce these high 
risk hazards.
    I would also like to comment on three recommendations put 
forth in the December 2008 section 102(b), subsection II, 
Safety and Health Compliance Tools. Specifically, there are 
three recommendations, there is recommendation 1, to provide 
investigative subpoena authority for OSHA claims; 
recommendation 2 would require safety and health record-
keeping; and recommendation 3, allow the Office of Compliance 
to protect employees from retaliation for reporting OSHA 
violations.
    All three of these recommendations are very important to 
the union, but I am especially interested in allowing the 
Office of Compliance to protect employees from retaliation for 
reporting OSHA violations. AOC employees want the same 
protections and rights that have been extended to the private 
sector and the executive branch. We do not want to be treated 
like second class Federal employees. Without these protections, 
the lowest graded and the lowest paid AOC employees can be left 
to shoulder the financial burden of litigating reprisal charges 
without the support of the general counsel's investigative 
process.
    As president of the local, I have personal experience where 
many cases stalled in mediation because, in my opinion, the AOC 
knows the employee bringing the charges will have the financial 
burden and expense to hire an attorney if they want to 
investigate and pursue a retaliation claim after mediation 
ends. This lack of protection has a chilling effect on the 
number of valid cases of retaliation AOC employees might be 
able to bring to light and resolve. Most of the employees do 
not have the resources to pursue their claims after mediation 
ends.
    I also would like under workplace rights to applaud two 
major employment laws passed by the Congress in fiscal year 
2009, the one broadening the Family and Medical Leave Act to 
extend rights and protection for covered military members. We 
can never do too much for the brave men and women of the Armed 
Forces who protect our freedoms. We also applaud the law 
banning genetic information discrimination that was made 
applicable to the CAA. We in the Congressional workplace want 
the same protections as private and other public sector 
employees enjoy.
    The union also urges Congress to approve the regulations 
adopted by the Office of Compliance board of directors that 
would grant Congressional employees all the statutory rights of 
the Veterans Employment Opportunities Act of 1998.
    Finally, the union would ask that Congress please review 
and reconsider all provisions of Federal law, including 
regulations relating to terms and conditions of employment 
including hiring, promotion, demotion, termination, salary, 
wages, overtime, compensation, benefits, work assignments, 
reassignments, grievance and disciplinary procedures, 
protection from discrimination in personal actions, 
occupational health and safety and family and medical and other 
leave of employees pertaining to the Congressional workplace to 
determine if the laws and regulations that, at one time, were 
determined to be inapplicable to the legislative branch can now 
be made applicable.
    In closing, I would like to thank Madam Chairwoman and the 
Ranking Member, Mr. Diaz-Balart for this opportunity. I would 
be happy to answer any questions at this time.
    Ms. Norton. Thank you very much, Mr. Reed.
    Megan Burger is a member of AFSCME Local 658, Council 26 of 
the CVC Employees Union Organizing Committee. The employees of 
the CVC have this month voted to unionize and to join the 
American Federation of State, County and Municipal Employees, 
Local 658.
    Welcome, Ms. Burger.
    Ms. Burger. Thank you Madam Chairwoman, Mr. Ranking Member, 
and Members of the Subcommittee. My name is Megan Burger, and I 
am the president of AFSCME Local 658 on Capitol Hill.
    I represent 138 people who work as tour guides and visitor 
assistants at the Capitol, who, as you say, just voted with a 
93 percent voter turnout to allow AFSCME to represent them. On 
their behalf, I thank you for providing us this opportunity to 
testify. I would also like to mention that I have a colleague 
here to help answer questions if needed.
    I am here to provide information on issues concerning 
safety in our workplace, a subject that was raised in the 
Chairwoman's letter to the Architect in mid August. I have 
provided a written statement to the Subcommittee that addresses 
a range of issues in some detail, which I will summarize today.
    Before proceeding, I would like to make clear that none of 
these issues affect the high level of safety and security that 
the Visitor Center affords to official business and tourists on 
a daily basis. The safety record of the CVC is outstanding, due 
to the expert experience and watchfulness of the guides, 
visitors' assistance and Capitol Police.
    Guides and VAs have a close working relationship with the 
police going all the way back to the first officially appointed 
guides who were actually a part of the Capitol Police's 
workforce in 1876. We are proud to be told by the USCP that 
they rely upon our experience to help them identify potential 
problems before trouble can begin. Our guides have worked 
alongside Capitol Police through harrowing events in the past 
such as the attack on their officers in 1998, the 9/11 
evacuation and the anthrax crisis of 2001.
    Year after year, each of us shepherds hundreds of guests 
every day safely through the Capitol adapting to hazards and 
disrupting as they arise. When we say ``visitor safety,'' we 
know what we are talking about.
    In June of 2010, there was an incident in the CVC 
Exhibition Hall that I am sure the Members are aware of. One of 
our VAs discovered a clear plastic bag containing white powder 
and labeled anthrax. Following the established procedure for 
discovery of suspicious items, the VA radioed a member of 
Visitor Services Management asking for a manager to come 
immediately to his location and suggesting the manager should 
bring the USCP as well. The manager elected to don gloves and 
dispose of the bag in a restroom toilet.
    As parts of these facts appeared in newspapers, some 
readers asserted to reporters that the incident revealed a lack 
of training on the part of VAs and guides. This frankly stings 
a little bit, since the VA did his job perfectly, and no guide 
was involved in the incident at all.
    Far more important than our injured pride is the fact that 
the incident was indeed a symptom of a deeper problem. There 
have been others, managers not responding to emergency radio 
calls, managers directing fire doors to be propped open, 
managers not giving attending physician's teams enough 
information to find injured persons in the CVC, and groups of 
seniors left to feel their way off theater stairs in the dark.
    On many occasions over the past 22 months, VAs and guides 
have recognized these and similar hazards, responded to them, 
and maintained visitor safety. Unfortunately, all the reported 
conditions to their managers, the conditions went uncorrected. 
We now believe this was due to a problem with the focus of our 
new management team.
    As background, let me explain that starting in 1970, a 
board consisting of both Sergeant at Arms and the Architect of 
the Capitol directed the Capitol Guide Service. Internal 
management was very simple and focused entirely on being good 
hosts and leaving the right impressions with visitors. A senior 
guide at a central radio operations post ran the whole 
organization, and it was very straightforward and successful.
    In November, 2008, to facilitate CVC operation, the guide 
service and the board were dissolved. The previous head of the 
guides had retired and a 3-tier visitor services office in the 
CVC composed of 12 people replaced him. In the CVC direction 
over the radio was conducted ad hoc by many or all of the 12 
managers. Soon thereafter, we began to notice many managers 
being called off the radio net to attend meetings or training 
or to take care of administrative and logical tasks.
    At times there would be no manager response on the radio at 
all, even to urgent calls. We also noticed manager follow-up on 
safety and other concerns became increasingly sporadic and was 
finally replaced with a barrier of denial.
    The managers team focus seemed to shift away from the 
members need for good hosts to care for their visitors toward 
something else. I am happy to report that since mid August, we 
have noticed some positive signs following Mr. Ayers' 
appointment, and the organizational adjustments within the CVC. 
With considerable help from AFSCME, we have succeeded in 
establishing our new local, and we are pleased to see our 
managers addressing one change after another as days tick down 
to the locals official certification. We now believe our 
managers are fully engaged and making progress in these areas.
    We hope these steps signal a return to focusing on being 
good hosts and preserving safety for the Members' guests.
    There remains a catalogue of concerns listed in my written 
statement, which I hope may be considered an unfortunate legacy 
from a period that has now passed. The guides and VAs as AFSCME 
658 stand ready to team with our managers to get this done. We 
know that we already share with them a love of country and a 
passion for sharing its story with the Members' constituents 
and visitors from around the world.
    Thank you, again, for the opportunity to testify.
    Ms. Norton. Thank you very much, Ms. Burger. Let me begin 
with Ms. Chrisler.
    Ms. Chrisler, how would you characterize the AOC's 
performance, let's say, in the last 2 years during this 
Congress in evading hazards, fair, good, poor, excellent? 
Choose one of those.
    Ms. Chrisler. Well, given the list that I have been 
provided by you, I would choose excellent. The work that the 
Architect of the Capitol and our office have done 
collaboratively has been, I think, one of the largest, outside 
of the efforts of the Members' offices and other employing 
offices, the largest factor in the success of the reduction of 
the hazards----
    Ms. Norton. What has been the largest factor, please?
    Ms. Chrisler. The collaborative efforts of the Office of 
Compliance and the Architect of the Capitol's office, so the 
work that the AOC has done with our cooperative efforts has 
been the largest factor, I believe, in the reduction of the 
hazards. I would like to share with you that the----
    Ms. Norton. What kind of work is that? Do you advise the 
AOC directly after your report is issued or before your report 
is issued?
    Ms. Chrisler. Right. Let me start by saying, Madam 
Chairwoman, that the Congressional Accountability Act is very 
specific in the distinction of work that is done within the 
Office of Compliance. We have a safety and health component, as 
you are well aware, and that authority is given with the 
specification to our general counsel. And that is why Mr. 
Eveleth sits at the table with me today. As the executive 
director, of course, I do oversee all of the programs under the 
Congressional Accountability Act.
    However, our general counsel is specifically authorized 
under the Congressional Accountability Act to address these 
issues and he works with the Architect of the Capitol's office 
on a day-to-day basis on these specific issues. And I would 
welcome the opportunity to allow him to share some of his vast 
knowledge in this area with you as well.
    With your approval----
    Ms. Norton. Mr. Ayers, how often are visitors injured in 
the Capitol Complex?
    Mr. Ayers. I am sorry, Madam Chair could you repeat the 
question?
    Ms. Norton. Yes, how often are visitors injured in the 
Capitol Complex?
    Mr. Ayers. I think the question is how often are visitors 
injured in the Capitol Complex. I don't know that we have, 
anyone has overarching statistics on the number of visitors 
that are injured. What I do see is a number of tort claims per 
year. So if someone falls and is injured, they may submit a 
tort claim.
    Ms. Norton. How many such claims?
    Mr. Ayers. I would say there are less than 10 a year.
    Ms. Norton. Now, don't you think that there should be--let 
me ask the entire panel whether there should be safety and 
health record-keeping in the Capitol Complex the way we have it 
in the private sector?
    Mr. Ayers. Well, from my perspective, the Architect has 
been keeping records on injuries and illnesses, near mishaps 
for over 10 years. We have an extensive, and I would call, 
OSHA-compliant record keeping program.
    Ms. Norton. You just said you didn't have any record of for 
example visitors injured in the Capitol Complex. Now you just 
say you have been keeping a record of injuries in the Capitol 
Complex.
    Mr. Ayers. I am speaking of record-keeping for employees 
under my supervision, 2,600 employees that are AOC employees we 
have----
    Ms. Norton. Oh, well, so you know about employees being 
injured, but if some of my constituents come in here, you don't 
know anything about their being injured.
    Mr. Ayers. I don't. I think the Capitol Police may keep 
such records if they call the police.
    Ms. Norton. Ms. Chrisler, who should keep such records?
    Ms. Chrisler. Madam Chairwoman, as it has been testified 
today, one of the recommendations in our annual, I am sorry, 
our Congressional Report under section 102(b) of the 
Congressional Accountability Act includes recommendations from 
our board of directors with respect to record-keeping 
provisions. That requirement is not a requirement under the 
Congressional Accountability Act for agencies to keep such 
records, records of workplace injuries.
    Our board of directors has made the recommendation, 
although there are some agencies that do keep records of these 
instances. It is not a requirement. All agencies don't, and as 
the Congressional Accountability Act is written now, none of 
the agency----
    Ms. Norton. I know that, Ms. Chrisler. You recommend that 
records be kept of all injuries whether employees, visitors, et 
cetera, is that right?
    Ms. Chrisler. The recommendation as it has been reported, I 
believe, is for employees, injuries of employees.
    Ms. Norton. So how is how is the AOC going to comply with 
the standards of workplace safety and prevent--sorry, prevent 
the tort claims if we don't even know, have no record of 
injuries of visitors, but only of our own employees?
    How many visitors--Mr. Ayers, how many visitors come to 
the, let's say the Capitol alone?
    Mr. Ayers. I would say approximately 2-1/2 million per 
year.
    Ms. Norton. So that is 2-1/2 million right there. I am not 
even talking about the Supreme Court, Library of Congress and 
the rest of those. So we could have, for all you know, dozens 
of injuries of visitors, and all you know is whether we get 
sued whether somebody has the prescience to go and find a 
lawyer.
    What kind of after-the-fact approach to preventing 
accidents is that?
    And Ms. Chrisler, you say you don't even recommend that we 
keep a record of injuries of visitors as well as employees?
    Ms. Chrisler. That is not part of the recommendation, Madam 
Chairwoman----
    Ms. Norton. Suppose somebody falls victim of one of the 
hazards you yourself discovered, but that victim is a visitor, 
and not an employee? Shouldn't that visitor's hazard or 
accident be as reportable as if that very same accident had 
involved an employee?
    Ms. Chrisler. As the Congressional Accountability Act 
applies the Occupational Safety and Health Act to the 
legislative branch, the OSHA Act itself does not speak----
    Ms. Norton. Of course, you say apply the OSHA safety--so 
you said even that doesn't apply.
    Ms. Chrisler. Right. The board of directors of the Office 
of Compliance can only make recommendations for record-keeping 
provisions for what the Congressional Accountability Act 
covers.
    Ms. Norton. I don't agree with you at all.
    I had an occasion to look very closely, and was very 
impressed with the very substantial powers you have. Now, how 
is Congress going to know that there is an issue if OOC doesn't 
tell the Congress? Your statute certainly allows you to 
recommend to Congress that it may want to look at or to 
consider at least knowing whether or not our own constituents 
get hurt in the Capitol complex.
    Ms. Chrisler. The OSHA law itself, Madam Chairwoman----
    Ms. Norton. I understand precisely what the OSHA law does. 
I am myself a lawyer just like you.
    Sorry, I conceded that we were talking that you wanted at 
least OSHA law to be applied.
    I am now speaking as a Member of Congress. There are 440 of 
us in the House and 100 of us in the Senate. I assure you that 
more people come to this House who are our constituents than 
are employees of the House or Senate.
    I am now trying to imagine what would happen if there were 
a major accident involving, let us say, a number of visitors. 
And then the press would run forward to say, well, how many 
visitors get injured? So I am asking you, and I certainly 
believe your statute allows you to make recommendations----
    Ms. Chrisler. That is absolutely right.
    Ms. Norton. --whether you would look into, since, 
apparently, you have confined yourself, I understand that, to 
OSHA, whether you would consider alerting the Congress to the 
fact that we do not know how many visitors are injured here 
every year. And these visitors, I hasten to tell you, are more 
likely to be constituents of Members of Congress than they are 
of any other visitors. Yes, visitors come internationally; 
visitors come from around the world. But you can bet your 
bottom dollar that most of the visitors who come here are 
constituents.
    Now, if you want to see some Member of Congress get angry, 
let's let a bunch of visitors from her district get hurt in the 
Capitol and let her propound a set of questions and hear what--
don't ask me about visitors; all I know is about employees.
    I am here saying that, if anything, we were very late in 
applying the laws that apply to everybody else to the Congress; 
I am suggesting that perhaps the Congress ought to consider 
going above and beyond when you consider who we are and who the 
visitors are likely to be.
    So I would ask you only, Ms. Chrisler, if you would 
consider looking into that issue and reporting to us in 30 days 
what your consideration would be.
    Ms. Chrisler. I would be delighted to raise that with our 
board of directors.
    Ms. Norton. I very much appreciate it.
    Mr. Loversidge, I am an aficionado of historic 
preservation. After all, I represent the Nation's Capital, 
which is full of historic buildings. I live in an historic 
house on Capitol Hill. I can't do a thing to the facade, and I 
wouldn't want to.
    But the whole District is protected. So I have some 
understanding of the importance of your work. I was interested 
in the part of your testimony that talked about, as you said, a 
great project means 100-year design decisions. What in the 
world is 100-year design? Does that mean that somebody sitting 
here now, as, for example, I am with respect to a new 
headquarters for the Department of Homeland Security, while it 
is going to be a state-of-the-art building; 100 years from now, 
it might be there, because we are building it as a platinum 
building. Does that mean I ought to be thinking about that 
building 100 years hence, or what does that mean, please?
    Mr. Loversidge. Thank you, Madam Chairman.
    What I mean by that is that we should be looking at the 
long view when we select materials, when we design 
modifications to buildings. When you design a new Homeland 
Security building, we should be looking at building something 
that is a public investment over a very long period of time.
    But acknowledging that, a lot the things that we put into a 
building we know aren't going to last a hundred years. We know 
the lights and some of the electronic equipment and so forth 
won't last that long. But if we make long-term decisions, when 
we cut into the building, we are cutting into the building for 
a purpose and putting that hole in a place where we think we 
are going to be able to use it for a long time. The example 
that I used was duct work, for instance. We need large volumes 
to move large volumes of air around to air condition a space. 
We know the air conditioning equipment is not going to last a 
hundred years. But if we put that someplace where we can get to 
it and easily replace it, the pathway lasts a hundred years. It 
is that sort of thing. It is really taking care and thinking 
twice. Measure once, cut twice.
    Ms. Norton. The way we ought to be thinking about energy, 
for example. What in the long term should we be doing? I don't 
know whose testimony it was that said that the building that 
was most in violation was this building, Rayburn, and that 
second--third was Longworth. What was second? Do you recall?
    Mr. Ayers. The Madison Building, Madam Chair.
    Ms. Norton. These are two of the newer buildings, Mr. 
Loversidge. We haven't been thinking very far ahead when it 
came to those buildings. You would have expected violations and 
hazards--at least, I would have, speaking as a lay person--more 
in the likes of Cannon and the older buildings, the old 
Library, or yes, Longworth. Can you give me any insights on 
that?
    Mr. Loversidge. Madam Chair, I think we are coming out of a 
period of neglect with regards to these sorts of issues, energy 
to even life safety, and to long-term decisions. I think that 
after World War II, there was so much demand to build things; 
we found ways do them quicker and cheaper, and kind of not 
worry too much about tomorrow, let's get it done for today. And 
I think that in the last decade or so, we are starting to come 
out of that. We are realizing our resources are limited. We are 
realizing that economic resources are very limited, and that we 
better spend our money well and look for the future.
    So I think we are coming out of that. And I think some of 
these buildings you just mentioned are subject to that period 
when we didn't have the civic pride and we didn't worry so much 
about tomorrow.
    Ms. Norton. Fascinating. Absolutely fascinating. So it 
means, as we all suspect when we look at our older buildings, 
Library of Congress, Cannon and Longworth, that for a number of 
reasons, they are better built, were built with greater care. 
Does that make the upkeep of those buildings any easier, given 
the fact that these newer buildings are the ones that have the 
violations?
    Mr. Loversidge. I think if we invest in maintaining 
buildings, then they don't cost more to maintain. The materials 
are permanent or more permanent sometimes, but we still have to 
watch over them; we have to plan for expenditures. And 
government I think is much better at building things than it is 
at maintaining them in terms of appropriations and so forth.
    Nobody likes to spend money on cleaning the plumbing out. 
But building a new building is kind of a dramatic thing to do. 
So it is very important that we look at the long term. Many of 
these violations, once they are resolved, can be resolved 
permanently.
    Ms. Norton. Say that again.
    Mr. Loversidge. Many of the violations that we are talking 
about here, if they are building code violations and that sort 
of thing, once we have a mind to fix them, we can fix it in a 
permanent fashion, or at least in a long-range fashion.
    Ms. Norton. Mr. Reed, it was disconcerting to hear about 
employees being discouraged from reporting workplace accidents 
on the one hand, and there seemed to be a whistleblower prize 
for reporting them on the other. Is that a conflict of interest 
that may--you say--I don't know what the evidence is--but you 
say workers at least have told you that they are discouraged 
from reporting these incidents because of the prizes or awards. 
Are these awards given to individuals or to the workplace 
itself?
    Mr. Reed. In some cases, it is both. In some cases, it 
appears that if there are no reportable accidents in a 
jurisdiction that a group of employees are given an award. And 
there are other instances where individual employees are given 
awards.
    Ms. Norton. I hate to come out against awards, but do you 
see some inherent conflict because people are trying their best 
to be as best they can?
    Mr. Reed. Absolutely. This morning I was talking with two 
of my stewards about this issue specifically, knowing that I 
was going to testify here. One of my stewards says, it is 
absolutely a conflict of interest. What we would like to see is 
some other program maybe instituted that would reward 
employees, yes, for safe work practices, but not at the expense 
of discouraging other employees for reporting workplace 
accidents that could impact--the point that was brought to me 
is if this accident isn't reported or this violation isn't 
reported, then someone else could also be injured because the 
violation was not reported.
    Ms. Norton. Oh, it is very dangerous.
    Mr. Reed. Exactly. Exactly. So yes, we do believe there is 
an inherent conflict of interest in using awards and safety in 
that kind of a context.
    Ms. Norton. The best kind of whistleblower is the one who 
just gets up and says what they saw. And we have had great 
problems in this Congress just protecting those whistleblowers. 
And I am sure it was with great and good will that encouraged 
employees to get together and do the best they can, and working 
together, they will make a safer workplace. But if you measure 
what is most valuable to the workplace, it is certainly having 
someone say, ``I see a problem here; let's deal with it right 
away.''
    Mr. Reed. I absolutely agree with you. We think the best 
program would be for maybe awards not to be used in this manner 
and employees applauded actually for reporting accidents. And 
the individual award maybe is more important than a zero-time-
lost kind of an approach, or no reportable accidents in this 
kind of a period. I agree with you; the conflict of interest is 
apparent there.
    Ms. Norton. Do you know whether is this notion about 
workplace safety awards throughout the Capitol Complex?
    Mr. Reed. It happens in certain jurisdictions. In my 
particular jurisdiction, we do not have them, but I know in 
other jurisdictions----
    Ms. Norton. Mr. Ayers, which jurisdictions have these 
awards? Is it at the initiation of particular workplaces or 
does your, for example, entire workplace have or not have these 
awards?
    Mr. Ayers. Madam Chair, we believe that an effective safety 
program and injury and illness reduction program requires both 
the carrot and the stick. And we have both of those in our 
policies and procedures. And if you look at our injury and 
illness rate, over 10 years, it has dropped 76 percent.
    Ms. Norton. The what, sir?
    Mr. Ayers. That tells me we are doing the right thing.
    Ms. Norton. Your what?
    Mr. Ayers. Our injury and illness rate has dropped 76 
percent over 10 years.
    Ms. Norton. Mr. Ayers, that doesn't tell me anything.
    Mr. Ayers. It is the number of employees that are hurt 
working on the job that has been reduced 76 percent in 10 
years.
    Ms. Norton. And I am pleased at that. But the notion that 
someone sees and prevents--yes, they are not injured. Few 
people are injured on the job. Congratulations. That doesn't 
mean that there are not workplace hazards on the job. I mean, 
the correlation you assume is anything but exact.
    I don't know why there are less reportable injuries. I 
don't even know why there are less--I have no idea about 
whether employees would report these workplace hazards.
    So let me put my question again. Are these workplace safety 
awards characteristic of the AOC, the Office of the Architect 
of the Capitol? Do you have them in your various divisions?
    Mr. Ayers. We certainly award employees for safe work 
practices. Absolutely. Yes.
    Ms. Norton. Individual employees or divisions?
    Mr. Ayers. Both.
    Ms. Norton. Ms. Chrisler, I would ask the OOC to look at--
and we will give you 6 months to do this--we use time frames in 
this Committee because, otherwise, you don't get back timely 
reports. The conflict of interest we see and that some of the 
workers report through Mr. Reed perhaps does not play out given 
the fact that the employees get together.
    Given the pressure that--now, here is a union president who 
works for solidarity as his very livelihood, and yet he says 
that there is a conflict of interest, knowing full well that 
that may mean that a division among some employees may not get 
an award. I don't know what it means to get an award. But if 
the union is willing to presume what I think would be the 
presumption of most people, then I would think that the issue 
would at least be worthy of investigation.
    We are interested in only one thing: up front reporting, up 
front vigilance, so that you can prevent accidents. I have 
never heard before of this whole notion of, as a group, let's 
prevent them. First blush, I like that, because one worker can 
help another to know not to do that.
    But Mr. Reed testifies that the opposite is also the case; 
you can get pressure not to report. I don't know if that was 
supervisors or if it was other workers. I presume it could be 
either.
    Mr. Reed, do you know whether it was either?
    Mr. Reed. Very good observation. Yes, we believe it works 
from both sides, whether a comment dropped by a supervisor is 
meant to be relayed to the rest of the employees, or the 
employees themselves discouraging the injured employee from 
reporting because it could jeopardize the group award, per se.
    Ms. Norton. Well, Ms. Chrisler, this testimony has special 
credibility because he is obviously testifying as a 
representative for whom, on the one hand, having a group award 
would be of some benefit. Obviously, it would be of some 
benefit for the individual worker as well.
    But the notion of assuming that something that is apparent 
throughout the workplace does not have a conflict of interest 
would bother us. So we will give you 6 months, and staff will 
write what that period means. You will get a letter within a 
week so that you can advise us on whether or not you think that 
these workplace safety awards--I can tell you that the Congress 
only deals with whistleblowers as individuals. We have just 
had--not with--when we have everybody else before us with all 
the agencies, huge discussions about whistleblowing. Never 
heard of this thing about the whole group.
    Just had a hearing on Metro here where the National 
Transportation Safety Board testified about practices, 
apparently, not in subways and rapid rail, but in all other 
forms of transportation where they have nonpunitive reporting. 
That is the best idea I have ever heard of. Nonpunitive 
reporting practices, which is a version of whistleblowing that 
may be at its very best. Where, without punishment, unless 
there is some deliberate violation, somebody with great malice 
or intention, you come forward and report the violation, even 
if it involves yourself. And we do that in common carriers.
    As far as I am concerned, we ought to have the same kind of 
standards for the Capitol as we have for common carriers, 
because it would be a huge embarrassment to Members of Congress 
to have reports of mishaps, particularly of visitors here, not 
to mention our own staff.
    Ms. Chrisler, I am very pleased at what you report about 
the cooperation between your general counsel and Mr. Ayers. And 
such cooperation has been apparently very, very beneficial in 
producing this very impressive reduction in violations. Let me 
ask you about whether or not there is another potential 
conflict of interest here. Is the Architect of the Capitol the 
code official for the Capitol who can grant variances for 
strict codes and compliance in historic buildings and the like? 
Isn't he his own code official?
    Ms. Chrisler. The way that the Congressional Accountability 
Act is written, our board of directors acts as the entity who 
has the authority to grant variances.
    Ms. Norton. Oh, that is very good news. So he isn't his own 
code official?
    Ms. Chrisler. Not with respect to that.
    Ms. Norton. At least as to granting variances.
    Ms. Chrisler. That is correct.
    Ms. Norton. Have you at the AOC or your board of directors 
encountered any disagreement or areas of disagreement 
concerning what constitutes code compliance? Or if you do, how 
do you work them out?
    Ms. Chrisler. We have monthly meetings at the Office of 
Compliance with the Office of the Architect of the Capitol to 
discuss a number----
    Ms. Norton. You have monthly meetings?
    Ms. Chrisler. Have monthly meetings. And we have open 
discussions. When we find a violation, we notify the employing 
office of the violation. They have an opportunity to contest 
that finding. And we provide for open dialogue and 
communication. We work very collaboratively with the employing 
offices, including the Architect of the Capitol.
    Ms. Norton. You made three recommendations: provide 
investigative subpoena authority for OSHA claims; require 
safety and health--require safety and health record keeping; 
and allow the OOC to protect employees from retaliation for 
reporting OSHA violations.
    Mr. Ayers, I recognize that you are not the final judge of 
this, but would you have any disagreement with those 
recommendations yourself as a professional?
    Mr. Ayers. Well, I certainly can't speak to the law. I am 
not an attorney. But I can speak to, from my perspective, I 
gather all of the injury and illness records already, have done 
so for over 10 years. We present those----
    Ms. Norton. So since you gather the safety and health 
records, you don't have any problem with reporting them.
    Mr. Ayers. We briefed the Office of Compliance twice on all 
these issues.
    Ms. Norton. So this is just a question, Ms. Chrisler, of 
reporting them, just as we would know about the private 
workplace or----
    Ms. Chrisler. I am sorry, would you repeat the question, 
Madam Chair?
    Ms. Norton. You said require safety and health record 
keeping. That is OSHA record keeping? That is what the private 
sector does.
    Ms. Chrisler. That is right.
    Ms. Norton. Mr. Ayers just testified that he does it 
anyway.
    Ms. Chrisler. The requirement under OSHA also is they 
provide the information on a regular basis. And that is 
something that----
    Ms. Norton. Do they report it?
    Ms. Chrisler. We have been given that information, as Mr. 
Ayers testified.
    Ms. Norton. I am sorry, the OSHA records, are they public? 
In other words, the safety and health records in a given 
private workplace, are they public? Can somebody find them out?
    Ms. Chrisler. I am not so sure about that.
    Ms. Norton. Mr.-- is it Eveleth?
    Mr. Eveleth. Eveleth, yes.
    Mr. Ayers. Madam Chair, I think I can answer that question.
    Ms. Norton. Mr. Ayers, yes.
    Mr. Ayers. Anyone who has a lost-time injury anywhere is 
reported through the Department of Labor Workers Compensation 
Program. OSHA is part of the Department of Labor. They talk to 
each other. It is reported on OSHA's Web site. You can find 
mine. You can find the House of Representatives'. You can find 
them all on OSHA's Web site.
    Ms. Norton. So, Ms. Chrisler, he says you can find his 
reports already on OSHA's Web site.
    Mr. Ayers. Our injury and illness rates.
    Mr. Eveleth. If I may, there are different kinds of records 
that are required to be given to OSHA. That is to say, OSHA 
gets information as to the nature of the injury, the causes, 
and a lot of other information is required. And that 
information is given on a regular basis to OSHA. So OSHA is in 
a position then to see to it, where are these injuries 
occurring? What are the causes of these things?
    And that is what the Office of Compliance is recommending 
is the very same type of records would be provided to our 
office, which then enables us to focus upon those areas which 
are causing the most injuries or illnesses so that we can 
dedicate our resources to those areas. And that is why we are 
asking for that.
    We do manage to get workers comp stuff because that is 
published. But that doesn't tell you the kind of information 
that we think that we need. And that is why our board is 
recommending that particular measure.
    Ms. Norton. So you see the difference, Mr. Ayers, between 
what you do and what Mr. Eveleth recommends--or sorry, the 
board of directors recommends? Do you have any personal or 
professional--I realize it may not be your decision to be 
made--but any personal or professional objection to reporting 
the same way?
    Mr. Ayers. No, ma'am.
    Ms. Norton. Just let me say, for the record, we were very 
sanctimonious here in the Congress when we said we were going 
to make sure that we use the same laws and rules and 
regulations here that you use in your lives, American citizens. 
So I would think that, at the very least, we ought to do that. 
And yet is it Mr. Reed who said--Mr. Reed, I was concerned, 
when you ask Congress to please review and reconsider all of 
the provisions of Federal laws.
    And then you name virtually every provision, some of which, 
most of which I thought already applied to the legislative 
branch and its various offices. Terms and conditions of 
employment, hiring, demotion, da-da da-da da-da. What does this 
mean, your list?
    Mr. Reed. My list is included--as union president, I am 
involved in very many different things, contract negotiations, 
changes in terms and conditions. Recently, for example, it is 
in my written testimony, we found out that Congress has allowed 
the Architect of the Capitol to not follow the same law of the 
normal schedule for Federal employees should be Monday through 
Friday at least 8 hours a day. That is an exemption in 5 U.S.C. 
for the Architect of the Capitol, to not follow that 
government-wide regulation that applies to just about every 
other Federal employee under the sun. And that is just one 
example. I am sure there are others. You know, those are some 
of the things that we have discovered that they do not. Not 
every law of the land applies to the employees of the Architect 
of the Capitol.
    Ms. Norton. Mr. Ayers, that is a breathtaking example. 
Breathtaking. Many of my colleagues would not hesitate to take 
to the floor of the House if they discovered such an employer. 
Lo and behold that employer is us, I guess. Could I ask you 
whether there are employees of the Capitol working other than 
the normal 8 hours per day who are being paid straight time?
    Mr. Ayers. I can assure you, Madam Chair, that is not the 
case. If someone works more than 8 and a half hours a day, they 
are paid overtime. Absolutely.
    Ms. Norton. Mr. Reed?
    Mr. Reed. What we are talking about is weekend work in 
particular. All right. Employees are being asked to cover 
weekends as part of their regular schedule at not overtime pay. 
And that is a direct----
    Ms. Norton. Would that mean time and half pay for weekends?
    Mr. Reed. Normally it would be.
    Ms. Norton. Well, what are they--for weekends, it is 
straight pay?
    Mr. Reed. Well, in some of the schedules that are being 
proposed for Architect employees, particularly employees at the 
Botanic Garden, we are being asked to work regular schedules 
that include Saturday, for example.
    Ms. Norton. Would that employee be working in other words a 
5-day work week, but his 5-day work week included Saturday and 
Sunday or something?
    Mr. Reed. His 5-day work week would--at present time, our 
5-day work weeks are normally Monday through Friday, all right, 
which mean Saturday becomes a time and a half day. Proposed 
schedules that are being proposed to us are saying, your 
regular schedule now will be Tuesday through Saturday, Saturday 
being a regular workday, which under the normal circumstance 
should be an overtime day.
    Ms. Norton. Well, staff informs me that the Fair Labor 
Standards Act indicates you can't work more than 8 hours on a 
given day. I am going to have to look into that. So you mean, 
if your 8 hours included Sunday, that is not considered--you 
know, there is every incentive to make the workday Wednesday 
through Sunday.
    Mr. Reed. Well, can I comment on that?
    Ms. Norton. Please.
    Mr. Reed. The Architect's policy basically allows the 
Architect to create almost any work schedule that fits their 
needs, which is, in my opinion, a direct violation of what the 
average government employee does. I mean, the law clearly 
states that employees normally--shall normally work a Monday 
through Friday work week, at least 8 hours per day. Again we 
are exempted in 5 U.S.C. from that particular provision. And 
the Architect's policy literally allows the Architect to create 
almost any work schedule that is needed to serve the Congress.
    Ms. Norton. Mr. Ayers, would you like to respond?
    Mr. Ayers. Well, certainly, Madam Chair.
    As you know, we work 24 hours a day, 7 days a week. Our 
Visitor Center is open on Saturdays. Our Botanic Garden is open 
on the weekends. We must be able to schedule our employees to 
include regular weekend work. Every fire department, every 
police station, every visitor services operation, every 
restaurant, every employer does that. If we had to pay 
overtime--and we do pay overtime for anything that is over 8 
and a half hours a day--but if we had to pay overtime for every 
Saturday and every Sunday, we just couldn't sustain that kind 
of fee. So we stagger our employees' work schedules, fully 
compliant with the law----
    Ms. Norton. Is the staggering done on a voluntary basis?
    Mr. Ayers. Sometimes it is, and sometimes it isn't. We have 
employees at the power plant, for example, that have to work 
12-hour shifts. And they may have 3 days on, 4 days off, just 
like firefighters often do. But in order to work on weekends, 
we have to have Tuesday through Saturday shifts or Wednesday 
through Sunday shifts. We also work three shifts per day.
    Ms. Norton. You know what, I could not be more 
unsympathetic. Don't you think that throughout the private 
sector, that is also the case?
    Mr. Ayers. Absolutely.
    Ms. Norton. The reason I am not particularly sympathetic to 
management here is that the Congress really beat itself on the 
breast that it was, in fact, complying in the same ways that 
the private sector complies. So you are giving me the same kind 
of argument that is given--or at least that the private sector 
would love to give. So what I think I am going to ask staff to 
do, because they do inform me that there may be other Federal 
agencies that have Saturday shifts. The Federal Government was 
supposed to be under the same rules. It was only us in the 
Capitol who left ourselves outside.
    I am going to have to look at what--and I am not going to 
ask the OOC do this, I am going to ask my own staff to do 
this--look at what State and local governments do. Because what 
Mr. Ayers said about 3 days on and 4 days off is really a 
trade-off. That is not the very same thing when you talked 
about fire departments.
    I think the Congress is going--not any of you at this 
table--going to have to come to grips with whether it wants to 
hold itself out as living under the same laws as everybody else 
or not. Because I don't like these discoveries that make us 
look like hypocrites when, in fact, we have differences in 
something as critical to the average employee as pay and 
overtime and the Fair Labor Standards Act.
    Let me go--so I am going to take a look at that before I 
decide that Congress should look at whether any changes should 
be made. I understand the expense. Talk to the private sector 
about the expense.
    Or if the private sector talks to the Labor Department 
about the expense, they will get the Bronx cheer: So? This is a 
law that is been on the books since the 1930's for egregious, 
the worst kind of violations. It is one of the things we are 
the most proud of.
    We are told that Americans work themselves to death, by the 
way. We are told that we work longer hours here than in Europe, 
for example. If we are going to do it, we are going to get paid 
for it.
    Ms. Burger, what role, if any, did the OOC play in 
addressing the workplace safety and training issue that you 
complained of? Did the OOC have any role in that?
    Ms. Burger. Sure. To my understanding, they contacted 
several of our employees and interviewed them quite extensively 
on workplace issues, ranging from inappropriate uniforms in all 
climates, whether outside, shuttle drivers, guides hiking the 
Capitol Dome, things such as visitors assaulting staff, and 
various sundry other things.
    Ms. Norton. Mr. Ayers, is there a new director of the 
Capitol Visitor Center?
    Mr. Ayers. We have an interim director in place, Madam 
Chair.
    Ms. Norton. When will there be a new director?
    Mr. Ayers. We expect to begin the recruitment process the 
month of October. That process will easily take 3 to 6 months 
to find someone.
    Ms. Norton. You haven't even begun it yet?
    Mr. Ayers. No, ma'am.
    Ms. Norton. Why not? Last director left some time ago, 
several months ago, didn't she?
    Mr. Ayers. Yes. So we are working on making some 
adjustments to the position description and the advertising 
process to be sure we get the right person.
    Ms. Norton. That is a good thing to do, yes. What are the 
processes for resolving the complaints of the kind that our 
Capitol Visitor Center employees or guides brought? What 
processes are in a place for resolving those?
    Mr. Ayers. I think, most importantly, Madam Chair, the key 
to resolving any dispute, whether it is a workplace dispute or 
any other kind of dispute, is just good, frank, open 
communication between employee and supervisor. And there is no 
doubt in my mind that that kind of open and frank communication 
is taking place now in the Capitol Visitor Center and will 
continue to take place in the Capitol Visitor Center.
    And, I think, Ms. Burger had mentioned that she has seen 
some improvements in that arena, and that people are respectful 
of one another and taking care of problems. I think it is, 
quite frankly, as simple as that.
    Ms. Norton. Well, Ms. Burger, is it as simple as that? Does 
open communication work to resolve the kind of complaints that 
you brought to me and others?
    Ms. Burger. I think it will definitely take a culture 
shift.
    Ms. Norton. Where did this culture come from? We didn't 
hear these complaints before. You had guides for a long time. 
We didn't hear that you had the wrong clothes outdoors and 
indoors. Is that the first time that occurred was when they got 
to be the Visitor Center, or were you not outdoors before? How 
come these things popped up all of a sudden?
    Ms. Burger. Maybe improper planning. That might be one 
observation.
    Ms. Norton. Did you have the proper uniforms before?
    Ms. Burger. Oh, yes, to answer your first question, yes, 
yes, we did work outside. We had a handful of outdoor posts 
that we were required to work in rain, sleet, sun or snow.
    Ms. Norton. So all of a sudden, you couldn't wear the same 
kinds of uniforms you wore before?
    Ms. Burger. That is correct. The tour guides who were under 
the Senate, and then when we moved to the AOC, we were told to 
turn in our winter coats----
    Ms. Norton. Were they winter coats that were uniform coats?
    Ms. Burger. Yes.
    Ms. Norton. Why?
    Ms. Burger. That is a good question.
    Ms. Norton. Didn't someone ask, why, it is cold out here? 
And surely, if you asked that question, somebody will respond.
    Ms. Burger. I know that visitors assistants who now work 
outside are given a very light windbreaker. And I know that 
they are allowed to wear layers of clothing under it. But these 
windbreakers, they are not waterproof. They are also not warm 
at all.
    Ms. Norton. So now what do they wear? This complaint has 
been resolved, has it not?
    Ms. Burger. No.
    Ms. Norton. Why hasn't this complaint been resolved, Mr. 
Ayers? It is going to get cold again soon.
    Mr. Ayers. I believe that employees that work outside are 
issued winter parkas. I am not familiar with anyone that works 
outside that doesn't have a winter parka.
    Ms. Norton. Ms. Burger?
    Mr. Ayers. I do recognize, Madam Chair, if I could, that 
the uniforms that were provided, in my opinion, were not of 
good quality. So we have fixed that problem. We have engaged 
employees and asked them what are the new uniform pieces and 
garments and things that you need to be successful in your job? 
We have listened to them. We have completely revamped the 
uniform program. And we are in the process today of delivering 
those new uniforms to employees.
    Ms. Norton. You are going to have brand new warm uniforms, 
Ms. Burger. Is that your understanding?
    Ms. Burger. We do not have brand new warm uniforms. We have 
been in the CVC for 2 and half years. And of course, last 
winter going through one of the biggest winters that we have 
had in decades, if not almost a century, and I know that----
    Ms. Norton. But no, Mr. Ayers would have to concede that 
there was a problem then. But he says that he has engaged you 
for new warm uniforms coming. I take it coming.
    Mr. Ayers. Yes, ma'am.
    Ms. Norton. Coming. Are you aware of that?
    Ms. Burger. We have been told that we will get--the 
visitors assistants will get outdoor gear. I believe this 
outdoor gear, is it rainproof? Is it waterproof? I am not sure 
that it is.
    Ms. Norton. Mr. Ayers, is it waterproof?
    Mr. Ayers. Yes, ma'am.
    Ms. Norton. Well, you just said there was good open 
communication. And I have had to set up a dialogue to make sure 
this matter was understood with Ms. Burger here.
     Perhaps there needs to be more communication with the 
Architect himself. I do wish there would be communication. That 
was shocking to hear. I wish there would be communication on 
this issue. And I wish you would report to us within 2 weeks on 
what the uniforms are and what the rules are with respect to 
uniforms in cold weather and in warm weather, and what the 
requirements are with respect to--this is 14 days--with respect 
to water. Is it your view that water can now be taken with a 
guide outdoors, for example?
    Ms. Burger. Yes. Since we have announced that we have been 
organizing in June 2010, which was also around the confirmation 
time of Mr. Ayers, we have been allowed to take water outside. 
Never before that. Water fountains are not----
    Ms. Norton. You were told specifically? Was there written a 
directive, no water with you on the outside on those 97-degree 
days or whatever we had?
    Ms. Burger. Upper management specifically told us we were 
not allowed to take water outside before June 2010. And we 
would be written up if so, if we were spotted. Now, that 
doesn't mean visitors assistants didn't sneak water outside for 
good reason. But that was the case. Additionally, water 
fountains are not accessible to all posts. We have a post, it 
is called shuttle. There are three shuttles that drive around 
the Capitol main complex. And anyway, they are outside all day 
typically. Some shifts aren't. But there are many that are.
    Visitor assistants also--let's see, they have to leave 
their post to refill their water. I know that the Capitol 
Police, you know, for example, they have coolers of water that 
they are allowed to--you know, they don't have to leave their 
post to go refill their water bottle.
    And I think it would be best for our image and also the 
image of the CVC if we also didn't have to leave our post to go 
fill our water bottle.
    Ms. Norton. You agree, Mr. Ayers?
    Mr. Ayers. I agree completely.
    Ms. Norton. That was pretty Draconian.
    Mr. Ayers. Inexplicable, Madam Chair.
    Ms. Norton. Yes, sir. One of the most disturbing of the 
allegations was the instruction to flush anthrax. Have you 
engaged, in fact, finding with respect to these allegations?
    Mr. Ayers. Yes, ma'am.
    Ms. Norton. What were your findings?
    Mr. Ayers. Well, we found that no one was directed to flush 
the bag of powder. But an employee--a supervisor, quite 
frankly, took matters into his own hands and did, as you say, 
actually picked up a bag and flushed it down the toilet. And I 
think that, too, Madam Chair, is inexplicable.
    But I think it is an important wake-up call for me, I think 
most importantly, because we do so much training and so much 
training on this issue specifically, that when someone gets 
under a tense situation and they don't follow their training 
tells me that that training may not be as effective as we want.
    Ms. Norton. Well, first of all, do you think it was a 
question of training, Ms. Burger?
    Of course, this would have been management training. Didn't 
we understand this was a management employee?
    Mr. Ayers. This was a supervisor, and clearly had been 
trained not to do that. The process of what to do when you find 
a suspicious package, this employee was trained specifically on 
that; did not follow his training and obviously is being held 
accountable for that.
    Ms. Norton. Is there going to be a written report with 
respect to the allegations made by the CVC employees, some of 
them rather serious?
    Mr. Eveleth. May I answer that?
    Ms. Norton. Yes, sir.
    Mr. Eveleth. As you know, your question initially was 
initially was, is there an avenue for employees to have these 
kinds of questions be addressed. And yes, under the 
Congressional Accountability Act, through the OSHA provisions, 
the employees have come to our office on all these issues that 
have been outlined here today. We have conducted an 
investigation. We are still in that process. We have brought in 
an occupational doctor to advise us. We have interviewed 
employees. We have interviewed management. And so we will be 
issuing--when those investigations are completed, which I hope 
will not be too far in the distant future--in the near future, 
we will issue a report.
    Ms. Norton. Thank you very much.
    Yes, that was very important for you to say. So I take it, 
Ms. Burger, that your members have been in touch with the AOC, 
which is the appropriate body?
    Ms. Burger. I am sorry, what was it? Could you repeat the 
question?
    Ms. Norton. With respect to the allegations brought to my 
attention and the attention of other Members of Congress, I 
assume that your members have been in touch with the AOC--I 
mean, the OOC?
    Ms. Burger. Oh, yes, very much so.
    Ms. Norton. Now, one of the most serious allegations, and I 
would like anyone who has any information on this, was that 
employees were instructed or told that they should not be in 
touch with their Member of Congress. So, please, any of you who 
has any information or opinion on that, would you please speak 
up?
    Mr. Ayers. I am happy to start that, Madam Chair. You know, 
from my perspective, employees are always welcome to speak to 
their Member of Congress.
    But I also think it is important for employees and 
management to work together collaboratively to communicate with 
one another, to respect one another. And if an employee has an 
issue or has a suggestion or has a comment, I think the first 
line of defense is to bring that to your supervisor and bring 
that to your manager, bring it to me.
    It is interesting that while Ms. Burger is a new union 
representative, Mr. Reed and I have met quarterly for quite 
some time. Because it is important to me to stay close and stay 
in contact with what is going on with the many unions that 
represent our employees. And he and I----
    Ms. Norton. Well, I couldn't agree with you more. Although, 
of course, I have got--I couldn't agree with you more. And if 
someone, let us say from the District of Columbia, and there 
are employees who work in the AOC, came to me with a complaint, 
the first thing I would ask them is, have you in fact reported 
this to the appropriate authority?
    But that wasn't my question. I wouldn't say to that 
constituent, who do you think you are coming to your 
Congresswoman to let her know about this? First of all, it may 
be an employee who doesn't know who the employee should go to.
    So, as a Member, I am interested in whether or not the very 
admirable policy of making sure people report in their own 
workplace is seen as at odds with speaking to your own Member 
of Congress.
    Mr. Reed?
    Mr. Reed. I would like to comment on that particular 
statement. AFSCME Local 626 has basically only been in 
existence 10 years. We have a group of employees that have been 
here for longer than that. And during my 21-year career here, 
it was not uncommon for employees to go to their 
Congresspersons for help in employment matters.
    And in a lot of cases, Congresspeople have gotten involved 
in helping employees. It happens today.
    I know we tell employees to go to the union first, but a 
lot of times, they don't come to the union first. That is not 
their first avenue.
    A lot of employees will take the direct approach, 
especially the employees, Madam Chair, that work for you all. 
All right. They feel some bond. If they clean your office or if 
they work in your office, they feel some bond there.
    And in a lot of cases, we don't hear about it until after 
they have already come to you or another Member asking for 
their assistance.
    Ms. Norton. Mr. Ayers, has the AOC given the impression 
that the employee should go to you first and not speak to the 
Member first?
    Mr. Ayers. Certainly not, Madam Chair. That should not be 
the case. That is not my intention. That is not my management 
style. And that is not what should be projected throughout this 
organization.
    Ms. Norton. Let me just say this for the record: It is 
impossible for employees who see their Member of Congress every 
day to forbear and not want to speak to them. People come to 
see or call their Member of Congress about every conceivable 
employer. And all we do, because we don't know the other side, 
is we make what we call an inquiry.
    Now, we would be very, very concerned if there were any 
notion of retaliation for speaking to your Member. You heard 
Mr. Reed's testimony. I think it is almost the natural thing to 
do, to think, oh, my goodness, I know this Member. It could be, 
in this case, from the region. That is I don't know how many 
Members in this region, but that could be upwards of 25 
different people, and maybe more if you include the Senate.
    No, it does no harm to what you desire to have the inquiry 
made. Members are very sophisticated. They are not going to 
make a judgment based on the report of a single employee. They 
are going to ask a question. So it would be very, very 
important to the Subcommittee that no impression be left about 
what you are supposed to do. You can go to Mr. Reed. For that 
matter, you can go to the AOC.
    Isn't that true, Ms. Chrisler?
    Couldn't they go to the AOC without coming to you, Mr. 
Reed?
    Mr. Reed. Absolutely. And that is the case. Like I said, 
there are a lot of employees that do not come to the union 
first. We do find out about it after they go to the Office of 
Compliance.
    Ms. Norton. Don't choose a remedy--if you have, for 
example, a complaint, let's say a discrimination, Mr. Reed may 
be able to settle that. But the law is real clear that an 
employment discrimination case can go straight to the arbiter 
of employment discrimination cases. You don't have to give him 
the opportunity. And Mr. Ayers would love the opportunity and 
is going to be given the opportunity, because the Member is not 
going to prejudge the case.
    No Member of this Congress would ever prejudge. They would 
simply pass on the concern.
    And I have no doubt, Mr. Ayers, that if we pass it on to 
you that it would be treated with fairness. I would ask that 
you make it clear to the employees of the AOC that an employee 
who happens to speak with his Member should be treated no 
differently because he has a First Amendment right to speak to 
his Member just like anybody else does.
    I wanted to ask you about the Blue Ribbon Panel, which you 
noted in your--I am sorry, the Blue Ribbon Panel was in Ms. 
Chrisler's testimony--was it in Ms. Chrisler's testimony--which 
issued its final report already. What are your initial thoughts 
on its recommendations? Is it public, by the way?
    Ms. Chrisler. Madam Chair, we are still reviewing the 
report.
    Ms. Norton. Are you going to make it public?
    Ms. Chrisler. The report is not ours to make public. I 
don't know if it is a public report or not.
    Ms. Norton. Whose is it? Who appointed the Blue Ribbon 
Panel?
    Ms. Chrisler. The Senate Rules Committee.
    Ms. Norton. I see. So do you have any initial thoughts on--
since we are having a hearing and some of the most egregious 
problems were in the Senate, do you have any initial thoughts 
on that?
    Ms. Chrisler. We are actually still in the midst of 
reviewing the report from the panel.
    Ms. Norton. Ms. Burger, you mentioned the signage. I would 
tell you, when I go to the Capitol Visitor Center I need a 
guide. We just had a hearing over there today, CVC, House CVC, 
Room 210. I know it is us. But since you mentioned that the 
signage of the new CVC is problematic, maybe it is not just us. 
Could I ask you what you mean by problematic and whether you 
have any suggestions as to what might be done in that new 
mammoth building? I believe it is three times the size of the 
Capitol.
    Ms. Burger. Sure. It is a beautiful building.
    You know, we enjoy answering folks' questions and helping 
them out if they need directions, whether it is a member of 
congressional staff, a Member, a visitor.
    One area that we see some concern is that there is an area 
of the Capitol--it is right after the visitors leave the 
theaters; it is right where the escalators take visitors into 
the Capitol, guide takes them into the Capitol--there is no 
signage. When there is not a police officer there, sometimes at 
the end of the day, it is very easy for visitors to wander in 
that direction. There are also a couple other places in the 
Capitol that could use some signage simply stating, you know, 
Do Not Enter. You know, These are private corridors; Members 
only, things like that.
    Ms. Norton. Yeah, I think, Mr. Ayers, that the signage 
would--it is true if you can get to a certain place, there 
would be a big sign. I think that the CVC would benefit from 
having interim, maybe movable signs somewhere along the way, 
``you are headed toward.'' You have got to pretty much get 
pretty close to know where you are going. And such a large 
building, it becomes very difficult. I was in the Ronald Reagan 
Building today. That is another mammoth building. You have to 
keep asking which way you are going. And there are not always 
people there. I just ask anybody who looks like he doesn't have 
a coat on. Maybe he lives here. But I did note that there were 
more signs along the way in the Ronald Reagan Building. And I 
am now speaking as a person who is giving only the impression 
of one person. But it seems to me that now that we have--what 
is it, more than a year--let me see, this wonderful center, 
which is a great favorite of mine, is what, is it 2 years old 
now?
    Mr. Ayers. About a year-and-a-half, Madam Chair.
    Ms. Norton. It would be good to do a survey of people 
coming and going from the CVC. Do we have such a survey? Do you 
have suggestions as to how we could make your visit more 
beneficial? And list a bunch of things that people could just 
cross off that might be helpful now that we have this new 
center, and it has been up for enough time to perhaps gather 
some information. And I would ask you to consider that and to 
consider making such a survey available to Members as well so 
that they may offer suggestions. Are Members' offices included 
in your work, Mr. Ayers, in terms of the rules, the 
regulations, the requirements? Members' individual offices?
    Mr. Ayers. To some degree, yes, ma'am.
    Ms. Norton. But not to every degree? What would be the 
difference between the requirements for safety and fire 
prevention in a Member's office and let us say other offices?
    Mr. Ayers. There wouldn't be any difference.
    Ms. Norton. Well, I want to thank each and every one of you 
for what has really been enlightening testimony for me. We very 
much appreciate that many of the problems that had been 
documented in the OOC report appear to be being worked out in 
just the best way, with the kind of communication Mr. Ayers has 
so marketed here today, just the kind of communication that he 
and OOC says has brought the kind of results we were after.
    We are pleased that Ms. Burger is working closely with you, 
Mr. Ayers. I believe that when workers are represented, there 
will be a vehicle, a natural vehicle for that kind of 
communication that, Mr. Ayers, you say you desire. Because that 
is what happens when there is somebody who is represented, who 
represents the workers, who can bring the matter straight to 
the attention. The worker doesn't have to one by one wonder how 
management will receive an issue.
    So I am pleased to see that the workers have found a way 
through their own organization to relate to the issues. This 
doesn't keep them from coming to a Member of Congress or from 
approaching Mr. Ayers on their own, just as Mr. Reed says 
occurs in his own years of work as a member of the union. Thank 
you very much. The hearing is adjourned.
    [Whereupon, at 4:04 p.m., the Subcommittee was adjourned.] 

    [GRAPHIC] [TIFF OMITTED] T8490.005
    
    [GRAPHIC] [TIFF OMITTED] T8490.006
    
    [GRAPHIC] [TIFF OMITTED] T8490.007
    
    [GRAPHIC] [TIFF OMITTED] T8490.008
    
    [GRAPHIC] [TIFF OMITTED] T8490.009
    
    [GRAPHIC] [TIFF OMITTED] T8490.010
    
    [GRAPHIC] [TIFF OMITTED] T8490.011
    
    [GRAPHIC] [TIFF OMITTED] T8490.012
    
    [GRAPHIC] [TIFF OMITTED] T8490.013
    
    [GRAPHIC] [TIFF OMITTED] T8490.014
    
    [GRAPHIC] [TIFF OMITTED] T8490.015
    
    [GRAPHIC] [TIFF OMITTED] T8490.016
    
    [GRAPHIC] [TIFF OMITTED] T8490.017
    
    [GRAPHIC] [TIFF OMITTED] T8490.018
    
    [GRAPHIC] [TIFF OMITTED] T8490.019
    
    [GRAPHIC] [TIFF OMITTED] T8490.020
    
    [GRAPHIC] [TIFF OMITTED] T8490.021
    
    [GRAPHIC] [TIFF OMITTED] T8490.022
    
    [GRAPHIC] [TIFF OMITTED] T8490.023
    
    [GRAPHIC] [TIFF OMITTED] T8490.024
    
    [GRAPHIC] [TIFF OMITTED] T8490.025
    
    [GRAPHIC] [TIFF OMITTED] T8490.026
    
    [GRAPHIC] [TIFF OMITTED] T8490.027
    
    [GRAPHIC] [TIFF OMITTED] T8490.028
    
    [GRAPHIC] [TIFF OMITTED] T8490.029
    
    [GRAPHIC] [TIFF OMITTED] T8490.030
    
    [GRAPHIC] [TIFF OMITTED] T8490.031
    
    [GRAPHIC] [TIFF OMITTED] T8490.032
    
    [GRAPHIC] [TIFF OMITTED] T8490.033
    
    [GRAPHIC] [TIFF OMITTED] T8490.034
    
    [GRAPHIC] [TIFF OMITTED] T8490.035
    
    [GRAPHIC] [TIFF OMITTED] T8490.036
    
    [GRAPHIC] [TIFF OMITTED] T8490.037
    
    [GRAPHIC] [TIFF OMITTED] T8490.038
    
    [GRAPHIC] [TIFF OMITTED] T8490.039
    
    [GRAPHIC] [TIFF OMITTED] T8490.040
    
    [GRAPHIC] [TIFF OMITTED] T8490.041
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
